r
v

1

*

Case: 18-10449, 08/12/2020, ID: 11785955, DktEntry: 69-1, Page 1 of 4

t

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

FILED
AUG 12 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-10449

D.C. No.
2:16-cr-00279-JAD-PAL-1

V.

JOSHUA SADAT WASHINGTON,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Nevada
Jennifer A. Dorsey, District Judge, Presiding
Submitted August 10, 2020**
San Francisco, California
Before: CHRISTEN and OWENS, Circuit Judges, and BATAILLON,*** District
Judge.
Joshua Washington appeals from his convictions and sentence for Hobbs
Act robbery under 18 TJ.S.C. § 1951 and brandishing a firearm during a crime of

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Joseph F. Bataillon, United States District Judge for
the District of Nebraska, sitting by designation.

Case: 18-10449, 08/12/2020, ID: 11785955, DktEntry: 69-1, Page 2 of 4

violence under 18 U.S.C. § 924(c). We have jurisdiction under 28 U.S.C. § 1291.
As the parties are familiar with the facts, we do not recount them here. We affirm. i
1.

Washington appeals from the district court’s denial of his “Motion

Requesting a Judgment Notwithstanding the Verdict—for a New Trial,” which the
district court construed as a motion for a judgment of acquittal and for a new trial
under Fed. R. Civ. P. 29 and 33. We review a district court’s ruling on a motion
for a new trial for abuse of discretion. Flores v. City of Westminster, 873 F.3d 739,
755-56 (9th Cir. 2017).
The district court did not abuse its discretion when it denied Washington’s
motion because he presented no facts that justified suppressing the evidence
against him. Searches by a private individual are not subject to constitutional
restrictions. United States v. Jacobsen, 466 U.S. 109, 113 (1984). While the
Fourth Amendment does apply if the government knows of and acquiesces to a
search and the private individual performs the search to assist law enforcement,
United States v. Reed, 15 F.3d 928, 930-31 (9th Cir. 1994), Washington did not
meet his burden of showing that the evidence established the government executed
this search.
Although a UPS employee in Las Vegas testified that law enforcement asked

1
On August 5, 2020, we received Washington’s pro se motion (Dkt.
No. 65). Because Washington is represented by counsel, only counsel may file
motions, and this court therefore declines to entertain the submission.
2

18-10449

Case: 18-10449, 08/12/2020, ID: 11785955, DktEntry: 69-1, Page 3 of 4

her about the package a day before the search, this testimony was contradicted by
“overwhelming, credible evidence” at the suppression hearing and at trial, which
showed that Washington’s involvement in the robbery became known to law
enforcement only after UPS independently searched the package. The district
court did not abuse its discretion when it credited this overwhelming evidence over
the word of one witness. See OTR Wheel Eng’g, Inc. v. W. Worldwide Servs., Inc.,
897 F.3d 1008, 1015 (9th Cir. 2018) (“[Credibility of the witnesses and the weight
of the evidence are issues for the jury and are generally not subject to appellate
review.”).
Washington points to inconsistent testimony regarding law enforcement’s
search of his storage locker as proof that law enforcement knew about the package
before UPS searched it. However, the record shows that law enforcement did not
contact the storage facility until after UPS searched the package. None of the
testimony at trial indicated otherwise. While one witness may have offered
inconsistent testimony about exactly when and how the facility cooperated with
law enforcement, even that inconsistent testimony did not rebut the district court’s
prior finding that UPS searched the package in Miami without law enforcement’s
knowledge or participation.
2.

18 U.S.C. § 924(c) imposes heightened criminal penalties for

brandishing a firearm “during and in relation to any crime of violence.” 18 U.S.C.

3

18-10449

Case: 18-10449, 08/12/2020, ID: 11785955, DktEntry: 69-1, Page 4 of 4

§ 924(c)(1)(A). Washington argues that § 924(c) does not apply because Hobbs
Act robbery does not categorically qualify as a crime of violence. We review de
novo. United States v. Dominguez, 954 F.3d 1251, 1256 (9th Cir. 2020).
After Washington filed his appeal, we decided Dominguez, which held that
Hobbs Act robbery remains a crime of violence under § 924(c). Id. at 1260-61.
This panel is bound by Dominguez, and therefore Washington’s challenge to his
conviction fails.
AFFIRMED.

4

18-10449

/

I

(

f

Case 2:16-cr-00279-JAD-PAL Document 225 Filed 03/07/18 Page 1 of 1

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

4

United States of America,

2:16-cr-00279-JAD-PAL

Plaintiff

5

VERDICT

6

v.

7

Joshua Sadat Washington,
Defendant

8

9
10

We the jury in the above entitled case, upon our oaths, do say:

11
12

1.

That, with respect to the offense of INTERFERENCE WITH COMMERCE BY

13

ROBBERY as charged in Count 1 of the indictment, we find the defendant:

14

(Check one:)

^Guilty

□ Not Guilty

15
16 2.

That, with respect to the offense of BRANDISHING A FIREARM IN

17

FURTHERANCE OF A CRIME OF VIOLENCE as charged in Count 2 of the

18

indictment, we find the defendant:

19

(Check one:)

□ Not Guilty

20

21
22
23

3.

That, with respect to the offense of TRANSPORTATION OF STOLEN PROPERTY
as charged in Count 3 of the indictment, we find the defendant:
□ Not Guilty
^Guilty
(Check one:)

24
25

Signed by:

REDACTED

26
27
28

Dated this

day of March, 2018

1

*

l

Case: 18-10449, 02/18/2021, ID: 12007933, DktEntry: 98, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 18 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

18-10449

D.C. No.
2:16-cr-00279-JAD-PAL-1
District of Nevada,
Las Vegas

JOSHUA SADAT WASHINGTON,
ORDER
Defendant-Appellant.
Before: CHRISTEN and OWENS, Circuit Judges, and BATAILLON,* District
Judge.
The panel has voted to deny the petition for panel rehearing. Judges
Christen and Owens voted to deny the petition for rehearing en banc, and Judge
Bataillon so recommends.
The full court has been advised of the suggestion for rehearing en banc, and
no judge has requested a vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
therefore DENIED. The motion to supplement or amend the petition is also
DENIED.

*
The Honorable Joseph F. Bataillon, United States District Judge for
the District of Nebraska, sitting by designation.

Additional material
from this filing is
available in the
Clerk's Office.

